SIGAR                                       Special Inspector General for
                                             Afghanistan Reconstruction




                                                       SIGAR 14-52 Audit Report




      Afghanistan’s Water Sector: USAID’s Strategy
      Needs to Be Updated to Ensure Appropriate
      Oversight and Accountability




                                                                  APRIL
                                                               2014
SIGAR 14-52-AR/Afghanistan’s Water Sector
                                                      APRIL 2014



SIGAR
                                                      Afghanistan’s Water Sector: USAID’s Strategy Needs to Be Updated
                                                      to Ensure Appropriate Oversight and Accountability

                                                      SIGAR AUDIT 14-52-AR
Special Inspector General for
Afghanistan Reconstruction                            WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                                   The U.S Agency for International Development (USAID) did not meet
                                                      three key objectives in the 2010 U.S. Government Inter-Agency Water
Since March 2006, the U.S. Agency for
                                                      Strategy, which was developed by USAID, the Department of State, U.S.
International Development (USAID) has
                                                      Forces—Afghanistan, the U.S. Army Corps of Engineers (USACE), and
invested approximately $580 million in
                                                      others. For example, it did not meet the strategy’s objective to
Afghanistan’s water sector to support,
                                                      implement an agency work plan that would, among other things, link
among other things, urban and rural
                                                      projects and activities to the goals cited in the strategy. The strategy
water supply and sanitation and
                                                      stated that each U.S. agency, including USAID, should develop and
agricultural productivity.
                                                      implement an annual work plan detailing its activities for meeting the
The 2010 U.S. Government Inter-Agency                 strategy’s goals. However, rather than developing an agency work plan,
Water Strategy for Afghanistan lays out               USAID intended to use the work plan for a proposed water program—the
efforts across U.S. agencies to achieve a             $653 million Water Resources Development Program—as the “agency
consolidated approach to water sector                 work plan.” However, this program was never implemented because
development. USAID plays a central role               USAID did not have the funds to do so. As a result, no work plan was
in guiding U.S. government efforts and                developed to meet the water strategy’s provision. Without a work plan
has funded nine water projects since                  that links projects and activities to goals, it is unclear the extent to
fiscal year 2010. SIGAR’s report focuses              which individual USAID water projects contribute to the broader U.S.
on four of these projects.                            government’s efforts to develop Afghanistan’s water sector, and USAID
Knowing whether USAID’s efforts are                   may have additional difficulty planning and implementing ongoing
properly targeted, measured, and                      water sector development efforts.
achieving their goals and objectives is               USAID also did not meet the strategy’s objective to use key
vital to supporting Afghanistan’s water               performance indicators to measure and evaluate its performance
sector. The objectives of this audit were             toward meeting the strategy’s goals. The strategy itself identified
to determine the extent to which (1)                  potential outputs and outcomes, such as increasing agricultural
USAID met key objectives of the 2010                  productivity and improving soil and water conservation, but USAID has
U.S. Government Inter-Agency Water                    not evaluated its projects’ performance against these indicators. As a
Strategy for Afghanistan and (2) four                 result, USAID cannot determine how its work achieves the strategy’s
USAID water projects implemented since                goals. Another objective of the strategy called for USAID to update the
2010 have met their project goals and                 strategy to reflect changing needs in Afghanistan’s water sector and
objectives. To meet these objectives,                 make it a “living document.” However, this did not occur. For example,
SIGAR reviewed USAID policies and                     since the strategy was completed in 2010, USAID has changed its
USAID-provided project data, including                priorities away from large infrastructure projects—such as dams and
contracts and progress reports. SIGAR                 commercial water and sewer systems—toward building capacity at
also interviewed officials at USAID’s                 Afghan ministries to manage these projects themselves. Despite these
Offices of Economic Growth and                        changes in priorities, the strategy has not been updated, nor does it
Infrastructure, Agriculture, and                      take into account the political and security transition when most
Acquisition and Assistance, among                     military forces are expected to withdraw from Afghanistan. By failing to
others. A more detailed discussion of                 update the strategy to reflect current priorities, USAID risks planning
SIGAR’s scope and methodology is in                   and implementing water projects that are not aligned with its goals for
appendix I.                                           the development of Afghanistan’s water sector.




         For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
USAID officials stated that even though the agency did not
meet the strategy’s objectives, some of the strategy’s goals          Cement Irrigation Canal Installed through USAID’S
have been realized through implementation of individual               AWATT Project
projects. However, the four key projects implemented since
fiscal year 2010 that SIGAR reviewed showed mixed
performance results, making it difficult to affirm USAID’s
assertion.
For example, USAID spent approximately $43.3 million on its
Sustainable Water Supply and Sanitation (SWSS) project to
increase access to sustainable sources of clean water for
domestic use among Afghanistan’s rural population.
However, the project did not meet some performance goals
and could not measure other performance goals because of
budget cuts, unrealistic performance targets, and higher-
than-estimated costs. As a result, USAID’s investment in and
SWSS’s overall impact on Afghanistan’s water supply and
sanitation service is unclear. In another project, USAID spent
about $3.5 million for 27 watershed assessments to identify
potential sites for small irrigation dams and micro-
hydropower projects across Afghanistan. However, USAID did
not use the assessments as intended and did not share them
in a timely manner with other U.S. and Afghan agencies. As a
result, the assessments could already be outdated and of
limited value for developing water projects.
                                                                        Source: USAID




 WHAT SIGAR RECOMMENDS
 SIGAR recommends that USAID (1) develop a new water sector strategy for Afghanistan with updated short-, medium-,
 and long-term goals and objectives that reflect USAID’s current water sector priorities; (2) develop and implement a
 performance measurement plan upon completion of the new strategy that can be used to evaluate USAID’s performance
 in meeting the new strategy’s goals and objectives; and (3) ensure this strategy includes clear lines of responsibility and
 accountability within USAID for implementing the strategy.
 In commenting on a draft of this report, USAID agreed with all three recommendations and discussed the steps being
 taken to implement them. USAID’s comments and SIGAR’s response are reproduced in appendix II.




         For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 24, 2014


Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Mr. William Hammink
Mission Director for Afghanistan, U.S. Agency for International Development


This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) water sector projects in Afghanistan since fiscal year 2010.
Specifically, we assessed the extent to which (1) USAID met key objectives of the 2010 U.S.
Government Inter-Agency Water Strategy for Afghanistan and (2) four USAID water projects
implemented since 2010 have met their goals and objectives. In general, we found that USAID
did not implement three key objectives of the 2010 U.S. Government Inter-Agency Water
Strategy and that the four USAID water sector projects had mixed results.
We recommend that the USAID Administrator (1) develop a new water sector strategy for
Afghanistan with updated short-, medium-, and long-term goals and objectives that reflect
USAID’s current water sector priorities; (2) develop and implement a performance
measurement plan upon completion of the new strategy that can be used to evaluate USAID’s
performance in meeting the new strategy’s goals and objectives; and (3) ensure this strategy
includes clear lines of responsibility and accountability of who within USAID will implement the
strategy.
We received written comments on a draft of this report from USAID, which we incorporated, as
appropriate. USAID agreed with all three recommendations. USAID’s comments and our
responses are presented in appendix II.
SIGAR conducted this audit under the authority of Public Law No. 110‐181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 1 

USAID Did Not Meet Three Key Objectives in the 2010 Water Strategy .................................................................. 5 
Four USAID Water Sector Projects Implemented since Fiscal Year 2010 Show Mixed Results in Meeting Their
Goals and Objectives ................................................................................................................................................. 10 

Conclusion.................................................................................................................................................................. 22 
Recommendations .................................................................................................................................................... 23 
Agency Comments ..................................................................................................................................................... 23 

Appendix I - Scope and Methodology ....................................................................................................................... 24 
Appendix II - Comments from the U.S. Agency for International Development ...................................................... 28 
Appendix III - Acknowledgements ............................................................................................................................. 36 


TABLES

Table 1 - U.S. Government Inter-Agency Water Strategy Goals................................................................................. 2 

Table 2 - Four USAID Water Projects Included in This Report ................................................................................... 4 
Table 3 - U.S. Government Inter-Agency Water Strategy Outputs and Outcomes.................................................... 7 
Table 4 - CAWSA Technical Performance Indicator Results .................................................................................... 14 

Table 5 - Examples of Utility Management Performance Indicators with Baselines and Targets ......................... 15 
Table 6 - Component 1: Water Supply and Sanitation Service Access .................................................................. 18 
Table 7 - Hygiene Education and Promotion (Component 2) Performance Indicators, Targets, and Results for
Community-Led Total Sanitation Areas .................................................................................................................... 20 

Table 8 - Five USAID Water Sector Projects Funded since Fiscal Year 2010 Not Included in the Audit .............. 24 




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                                                                             Page i
ABBREVIATIONS

            AWATT                       Afghanistan Water, Agriculture Technology Transfer
            CAWSA                       Commercialization of Afghanistan Water and Sanitation Activity
            GAO                         Government Accountability Office

            ICMA                        International City/County Management Association
            NMSU                        New Mexico State University
            SWSS                        Sustainable Water Supply and Sanitation
            USACE                       U.S. Army Corps of Engineers
            USAID                       U.S. Agency for International Development
            USAID/OIG                   U.S. Agency for International Development/Office of Inspector
                                        General




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                Page ii
Access to water is critical to stability in Afghanistan and is an essential part of U.S. development efforts.
Decades of conflict and persistent drought have resulted in damaged irrigation systems and other water
infrastructure, insufficient water monitoring and storage, and a lack of access to safe and adequate drinking
water. In addition, Afghanistan suffers from a lack of reliable data concerning its water resources, and a lack of
skilled human resource capacity in water management. Water is a cross-cutting issue that will continue to
affect Afghanistan’s food production, economic growth, and human health after the 2014 drawdown of
coalition forces.
Since March 2006, the U.S. Agency for International Development (USAID) has awarded contracts valued at a
total of approximately $580 million in Afghanistan’s water sector, in areas such as urban and rural water
supply and sanitation; agricultural productivity and human knowledge transfer; and human resources,
engineering, and logistics. In order to assist the Afghan government in its efforts to develop Afghanistan’s
water sector, the U.S. Embassy’s Infrastructure Working Group,1 made up of representatives from USAID, the
Department of State, U.S. Forces—Afghanistan, the U.S. Army Corps of Engineers (USACE), and Provincial
Reconstruction Teams, among others, developed the U.S. Government Inter-Agency Water Strategy for
Afghanistan (2009-2014) (“2010 Water Strategy”).2 This key document lays out current and planned efforts
across U.S. government agencies for a consolidated approach to water sector development. Knowing whether
these efforts are properly targeted and measured and have achieved their goals and objectives is vital to
supporting Afghanistan’s water sector. The objectives of this audit were to determine the extent to which (1)
USAID met key provisions of the 2010 U.S. Government Inter-Agency Water Strategy for Afghanistan, and (2)
four USAID water projects implemented since 2010 have met their project goals and objectives.
To accomplish our objectives, we reviewed U.S. regulations and guidance; reports from the Government
Accountability Office (GAO), USAID, and USAID Office of Inspector General (USAID/OIG); USAID policies and
procedures; and USAID-provided project data, including contracts, cooperative agreements, progress reports,
and related documentation. We also interviewed officials at USAID’s Offices of Economic Growth and
Infrastructure, Agriculture, and Acquisition and Assistance; the U.S. Department of Agriculture; GAO; USACE;
and the U.S. Embassy in Kabul. Our initial audit scope entailed examining nine completed, ongoing, or planned
projects since fiscal year 2010. However, because five of the projects were either recently initiated or had
relatively small water-related components, we narrowed our focus to four projects. A more detailed discussion
of our scope and methodology is in appendix I. We conducted our work in Arlington, VA, and Kabul,
Afghanistan, from February 2013 to December 2013, in accordance with generally accepted government
auditing standards.


BACKGROUND
The 2010 Water Strategy addresses several technical areas, including agriculture, soil and water conservation,
water supply and sanitation, governance and management, hydropower, and transnational boundary (trans-
boundary) issues. The strategy includes short-, medium-, and long-term goals pertaining to each of these areas
and provides for the measurement of progress toward achieving these goals through specific performance
outputs and outcomes. These goals are summarized in table 1.




1 U.S. Embassy Kabul created the Infrastructure Working Group to coordinate, review, and oversee U.S. government-funded

national, regional, and district-level activities in water, transportation, and energy. The group is responsible for guiding U.S.
efforts to reconstruct critical infrastructure in Afghanistan.
2U.S. Government Inter-Agency Water Strategy for Afghanistan 2009-2014: A Strategic Approach to Support a Secure and
Self-Reliant Afghanistan, To Foster Afghan Solutions, and To Build Afghan Capacity. February 2010.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                                Page 1
Table 1 - U.S. Government Inter-Agency Water Strategy Goals
              Agency                                   Program                                      Goals
          Short-term Goals                        Medium-term Goals                            Long-term Goals
           (August 2010)                            (August 2012)                                (July 2014)

Complete all watershed assessments        Increase agricultural productivity        Improve the economic, social, and
within the south and east of              through better irrigation                 environmental benefits from use of
Afghanistan and identify watersheds                                                 water resources
for focused investment

Establish a planning process for an       Enhance soil and water conservation       Strengthen the institutions governing
annual conference of the U.S. water       to sustain the natural resource base      and managing water resources
strategy in Afghanistan                   upon which production depends

Develop individual work plans for         Increase access to water supply of
respective agency activities              adequate quality and proper sanitation
                                          and associated hygiene behaviors

Develop one aggregate work plan           Enhance overall governance and
comprised of all agency work plans        management of the sector to sustain
                                          progress over time

Establish a regular mechanism for         Generate additional hydropower with
information sharing and coordination      allied improvement to irrigation
among U.S. government agencies with       facilities
particular emphasis on enhancing
civilian and military cooperation
through the Provincial Reconstruction
Teams

Award a new contract for community-       Strengthen understanding and
based water system improvements           capacity to effectively address
and mobilize contractor                   boundary water issues

Initiate a new urban water and
sanitation initiative

Source: U.S. Government Inter-Agency Water Strategy for Afghanistan, pp. 11–12.


While the 2010 Water Strategy seeks to document and inform efforts across multiple U.S. government
agencies, USAID plays a central role in guiding U.S. government efforts to assist Afghanistan’s water sector.3
For example, USAID’s Office of Economic Growth and Infrastructure and Office of Agriculture have recently
taken the lead from the World Bank in coordinating meetings of international donors involved in developing
Afghanistan’s water sector. In addition, USAID plays a key role in the Water Stakeholders Group, a group of



3 A November 2010 audit conducted by GAO recognized USAID’s central role in the implementation of the 2010 Water

Strategy and recommended that USAID, in conjunction with other relevant agencies, develop an interagency
implementation plan for the strategy that establishes an agreement on the roles and responsibilities of the various U.S.
agencies to meet the strategy’s goals. U.S. Government Accountability Office, Afghanistan Development: U.S. Efforts to
Support Afghan Water Sector Increasing, but Improvements Needed in Planning and Coordination, GAO-11-138.
Washington, DC: Government Accountability Office, November 2010.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 2
representatives from USAID and the Departments of State, Agriculture, and Defense that was established by
the Embassy’s Economic Section to coordinate water projects.
USAID has funded nine water sector projects since fiscal year 2010. Because five of these projects have either
recently begun or do not primarily focus on the water sector,4 our report discusses the following four:
Afghanistan Water, Agriculture and Technology Transfer (AWATT); Commercialization of Afghanistan Water and
Sanitation Activity (CAWSA); Sustainable Water Supply and Sanitation (SWSS); and a USAID–USACE
Participating Agency Service Agreement. See table 2.




4 The Kabul Urban Water Supply project began in April 2013; the Irrigation and Watershed Management project began in

January 2013 and, according to USAID’s implementing partner, was conducting start-up activities during February–April
2013; and the Ministry of Energy and Water Capacity-Building project has not been awarded. According to USAID, the water
sector-specific component of the Human Resource and Logistical Support project totals approximately $3 million of the
over $81 million project; similarly, the water sector-specific component of the Engineering Quality Assurance and Logistical
Support project totals approximately $3 million of the more than $61 million project.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 3
Table 2 - Four USAID Water Projects Included in This Report
         Project                      Description and Purpose                       Cost*         Period of
                                                                                                 Performance

Afghanistan Water,            Improve community- and farm-level                  $16,056,296    3/3/2008 to
Agriculture and Technology    management of the supply and demand of                            6/30/2011
Transfer (AWATT)              irrigation water resources for increased
                              agricultural productivity and food security.

Commercialization of          Establish a viable business model for water        $14,191,364    11/5/2008 to
Afghanistan Water and         service delivery in Afghanistan by                                5/11/2014
Sanitation Activity (CAWSA)   enhancing both technical and commercial
                              operations at each of the Afghan Urban
                              Water Supply and Sewerage Corporation’s
                              water supply and sanitation utilities in
                              Gardez, Ghazni, Jalalabad, and Mazar-e-
                              Sharif.

Sustainable Water Supply      Increase access to sustainable sources of          $43,314,113    9/28/2009 to
and Sanitation (SWSS)         clean water for domestic use among                                12/29/2012
                              Afghanistan’s rural population; improve
                              hygiene behaviors for poor and vulnerable
                              populations in Afghanistan; and improve
                              the long-term technical, financial, and
                              environmental sustainability of potable
                              water supply and sanitation services.

USAID–USACE                   Identify, plan, design, and implement              $12,000,000a   12/21/2008 to
Participating Agency          USAID infrastructure projects and related                         1/15/2012
Service Agreement             engineering, construction, and capacity-
                              building activities. The agreement required
                              USACE to conduct watershed assessments
                              to identify potential sites for small irrigation
                              dams and micro-hydropower projects
                              across Afghanistan.

Source: Contract Documentation and USAID Data Call Responses
Notes:
* USAID-reported expenditures, as of February 2013.
a According to USAID, approximately $3.5 million of this total was spent on the watershed assessments.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                       Page 4
USAID DID NOT MEET THREE KEY OBJECTIVES IN THE 2010 WATER STRATEGY

We found that USAID did not meet three key objectives of the 2010 Water Strategy. That strategy states that
each U.S. agency strategy stakeholder, including USAID, should
        develop and implement individual work plans detailing its activities for meeting the strategy’s goals,
         and use these individual work plans to develop one aggregate 2010 Water Strategy work plan;
        include in the individual work plans key performance indicators, described through outputs and
         outcomes,5 that each agency uses to measure and evaluate its performance and gauge progress
         toward achieving the strategy’s goals; and
        keep the strategy a “living document” to reflect relevant water sector needs in Afghanistan.6


USAID’s Lack of a Work Plan Makes It Difficult to Determine How Individual Projects
Contribute to the U.S. Government’s Water Sector Development Efforts
The 2010 Water Strategy states that each U.S. agency, including USAID, should develop and implement
individual annual work plans detailing its activities for meeting the strategy’s goals. These individual work plans
should then be used to develop one aggregate water strategy work plan. However, USAID did not develop an
agency work plan. Rather, USAID officials stated that the work plan for a proposed water program—the $653
million Water Resources Development Program7—was to serve as the “agency work plan” called for under the
water strategy. However, USAID officials stated that the Water Resources Development Program was not
implemented because of a lack of funds.8 As a result, no work plan was ever developed for the program or,
more importantly, for the 2010 Water Strategy.
USAID officials stated that, even had the program been implemented, the agency deemed it unnecessary to
develop a USAID-specific water sector work plan because each individual project had its own work plan.9
Moreover, USAID officials noted that individual components of the 2010 Water Strategy have been addressed
through ongoing projects and programs. For example, USAID noted that its CAWSA project funded advisors to
support Afghan government efforts to address the strategy’s goals of strengthening trans-boundary water
management and supporting water and sanitation sector reforms.
Although USAID asserts that individual components of the 2010 Water Strategy have been carried out through
USAID projects, the fact remains that USAID did not meet the water strategy’s objective that it establish an
agency work plan detailing its activities for meeting the strategy’s goals. Without a work plan that links projects
and activities to the short-, medium-, and long-term goals cited in the 2010 Water Strategy, it is unclear the
extent to which individual USAID water projects contribute to the broader U.S. government’s efforts to develop


5 The 2010 Water Strategy defines outputs as quantifiable performance results, such as megawatts for power produced
and number of people trained. Outcomes are more long-term development impacts that result from implementation of the
strategy.
6U.S. Government Inter-Agency Water Strategy for Afghanistan 2009-2014: A Strategic Approach to Support a Secure and
Self-Reliant Afghanistan, To Foster Afghan Solutions, and To Build Afghan Capacity. February 2010.
7The Water Resources Development Program was intended to, among other things, conduct dam feasibility studies and
designs and provide technical assistance to build the capacity of the Afghan Ministry of Energy and Water on river basin
planning and trans-boundary issues. The project was also intended to develop a nationwide network to collect and analyze
water resources data for use in local and transnational decision making.
8 USAID officials said that the program was canceled during the design phase. The officials did not provide any specific

explanation as to why there was a lack of funds.
9 One of the water projects we reviewed—the USAID–USACE Participating Agency Service Agreement—did not have an

individual work plan.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 5
Afghanistan’s water sector, and may make it more difficult for USAID to plan and implement ongoing water
sector development efforts.


USAID Did Not Evaluate Its Performance against the 2010 Water Strategy’s Key
Performance Indicators
The 2010 Water Strategy also states that individual agency work plans should include key performance
indicators, described through outputs and outcomes. The agencies were supposed to use these indicators to
measure and evaluate their performance and gauge progress toward achieving the water strategy’s goals. The
strategy states that outputs were to be evaluated annually and outcomes were to be evaluated midway
through the water strategy’s implementation in August 2012, and at completion in December 2014.
Information on progress was to be gathered primarily through USAID implementing partners and
complemented by data gathered under the U.S. military’s Commander’s Emergency Response Program.10
Table 3 below lists outputs and outcomes described in the water strategy.




10The Commander’s Emergency Response Program is intended to enable local commanders in Afghanistan to respond to
urgent, small-scale, humanitarian relief, and reconstruction projects and services that immediately assist the indigenous
population and that the local population or government can sustain.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                          Page 6
Table 3 - U.S. Government Inter-Agency Water Strategy Outputs and Outcomes
                       Outputs                                                      Outcomes
                  (Annual monitoring)                                   (Monitoring mid-way through and
                                                                       at end of strategy implementation)

 Watershed assessments completed within 18 provinces          Agricultural productivity increased through better
                                                                irrigation
 Five water conferences held
                                                               Soil and water conservation improved
 Information-sharing system implemented among U.S.
  government agencies                                          Greater economic productivity achieved through
                                                                improved access to water supply and sanitation and
 Rural water and sanitation improvements implemented
                                                                associated hygiene behaviors
  in 1,000 communities
                                                               Overall governance and management of the sector
 Urban household water connections for 400,000 people
                                                                enhanced to sustain progress over time
  and urban sanitation improvements for 200,000 people
                                                               Understanding and capacity to effectively address trans-
 Watershed management improvements implemented in
                                                                boundary water issues strengthened
  50 communities
 Trans-boundary water management strategy developed
 Approximately 4 water advisors annually provide
  strategic advice to Afghan government institutions
 Approximately 1,000 people receiving training in
  improved water resources management (technical and
  administrative)
 Approximately 200 megawatts of additional hydropower
  installed
 Approximately 10,000 additional hectares of land
  irrigated
 Approximately 2,500 additional hectares of land treated
  to improved watershed management
 4 new business models for commercial water
  management plan implemented

Source: U.S. Inter-Agency Water Strategy for Afghanistan, pp. 20–21.


However, USAID did not evaluate its performance against these indicators. USAID officials stated that because
the Water Resources Development Program was canceled and no work plan was developed, the annual
monitoring of the 2010 Water Strategy’s outputs and the mid-term evaluation of outcomes were also not
conducted.11 In its comments on our draft report, USAID acknowledged that it did not conduct the mid-term
evaluation, as recommended, opting instead to monitor progress every 2 months through meetings with U.S.
government stakeholders.
USAID officials stated they are able to measure outputs and outcomes of the agency’s individual water-related
projects by using the projects’ performance monitoring plans, which contain performance indicators. In
addition, USAID officials told us that the USAID/Afghanistan Mission’s broader Performance Management Plan

11 State Department officials from the Embassy’s Economic Section told us that while water-related projects have been
discussed during Water Stakeholder Group meetings (a group of representatives from USAID and the Departments of State,
Agriculture, and Defense that was established by the Embassy’s Economic Section to coordinate water projects), they were
also not aware of any evaluations of the 2010 Water Strategy’s outputs and outcomes.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 7
(2011–2015)12 provides guidance on tracking progress of all sector-level strategies, including the water
sector. This plan covers the entire U.S. government foreign assistance portfolio in Afghanistan, describes
outputs and outcomes, and sets a timeline for conducting evaluations and impact assessments. The
Performance Management Plan also includes indicators for measuring outputs and outcomes in water sector
projects, such as “more efficient use of expanded water resources,” “improved access to water supply and
sanitation,” and the “number of people in target areas with access to improved sanitation facilities as a result
of U.S. government assistance.” However, these indicators do not measure the same outputs and outcomes
called for in the 2010 Water Strategy. For example, they lack specific targets, such as the strategy’s “rural
water and sanitation improvements implemented in 1,000 communities,” and “urban household water
connections for 400,000 people and urban sanitation improvements for 200,000 people.” Therefore, the
Performance Management Plan indicators do not measure the outputs and outcomes called for in the 2010
Water Strategy.
Because USAID did not measure the performance of its individual water sector projects in meeting the 2010
Water Strategy’s goals, it does not have an accurate account of USAID’s water sector development work as a
whole, and it may be difficult to adequately plan for any future USAID investments in Afghanistan’s water
sector.


USAID Has Not Updated the 2010 Water Strategy to Reflect Its Priorities for
Addressing Afghanistan’s Water Sector Needs
The 2010 Water Strategy also called upon U.S. agencies, including USAID, to keep the strategy a “living
document,” and up-to-date to reflect relevant water sector needs in Afghanistan. USAID officials told us that
USAID priorities have changed since 2010, when the water strategy was approved. For example, USAID water
sector activities implemented around the time the water strategy was approved included support for water
supply and sanitation, improved irrigation and agricultural usage, commercial operation of water and sewer
systems, the renovation of hydropower dams, and technical advice related to trans-boundary water
management. However, current USAID water activities focus less on large infrastructure and more on irrigation
and watershed management, water and sewer system operations, and capacity building at the Ministries of
Energy and Water, and Agriculture, Irrigation and Livestock. Although these new activities reflect a change in
priorities, the strategy was not updated accordingly.
In addition, USAID updated its global water sector priorities in May 2013, as part of its Water and Development
Strategy for 2013–2018 (“global water strategy”)—intended to provide a clear understanding of the agency’s
approach to water program activities around the world.13 The global water strategy states that USAID water
sector priorities should now focus on global improvements in (1) water supply, sanitation, and hygiene
programs, and (2) sound management and use of water for food security14 and that, beginning in fiscal year

12 The Performance Management Plan is the U.S. Mission in Afghanistan’s tool to plan and manage the process of

assessing and reporting progress towards assistance/foreign policy objectives identified by the President of the United
States, the Secretary of State, the U.S. Ambassador to Afghanistan, and the Afghan government. The plan establishes a
process to: monitor and evaluate the achievements of assistance programs, collect and analyze performance information
to track progress toward planned results, use performance information and evaluations to influence decision-making and
resource allocation, and communicate results achieved or not attained.
13 The purpose of the USAID Water and Development Strategy is to guide USAID’s worldwide investments in water

programming, to inform the development of country strategies, guide decision-making on budgeting and resource
allocation, and to highlight priority regions and program areas for water programs. The Water and Development Strategy
states that there will be greater focus and selectivity among USAID water programs leading to greater development impact.
14 More specifically, the global water strategy establishes two strategic objectives: (1) improve health outcomes through the
provision of sustainable water supply, sanitation, and hygiene, to be achieved through a continued focus on providing safe
water; an increased emphasis on sanitation; and support for programs that can be brought to scale and be sustained, and
(2) manage water for agriculture sustainably and more productively to enhance food security; this will be achieved through


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 8
2014, all new USAID water programs should fully align with these two strategic objectives. The 2010 Water
Strategy does not reflect these narrowed global USAID water sector priorities. For example, the 2010 Water
Strategy includes priorities covering governance and trans-boundary issues, which are not part of the 2013
global water strategy.
USAID and other U.S. government agency stakeholders acknowledged that USAID’s water sector priorities have
changed, and they described the 2010 Water Strategy as having become outdated. Meeting notes from the
U.S. Embassy’s Water Stakeholders Group held in February 2013 showed stakeholders believed that only
some sections of the 2010 Water Strategy remained relevant,15 while other sections had become outdated
and need to be updated. For example, the meeting notes explained that priorities outlined in the water strategy
under “Current U.S. Government Water Activities” and goals expressed under “The Way Forward” have not
been updated to reflect considerations regarding the political and security transition, such as group
stakeholders’ concerns over a lack of funding for water projects after the military withdrawal from Afghanistan.
USAID added that the hydropower section of the water strategy, particularly USAID-led large-scale hydropower
development, has also become outdated. By failing to update the strategy to reflect current priorities, USAID
risks planning and implementing water projects that are not aligned with its current goals for the development
of Afghanistan’s water sector.


The 2010 Water Strategy Did Not Clearly Identify Roles and Responsibilities for
Implementing, Coordinating, and Updating the Strategy
One reason the 2010 Water Strategy has not been updated to reflect current U.S. government water sector
priorities for Afghanistan is the failure of the strategy to establish clear lines of responsibility or accountability
for the agencies involved. This lack of accountability impedes the strategy’s implementation and prevents it
from functioning as a “living document.” For example, our analysis shows, and USAID officials from the Office
of Agriculture confirmed, that the strategy lacks specifics on which person or agency was responsible for
leading, implementing, and coordinating the activities listed in the strategy. A November 2010 GAO report
identified these challenges and recommended that USAID, in conjunction with the other relevant agencies,
develop an interagency implementation plan for the water strategy that establishes agreement on the roles
and responsibilities of the various U.S. agencies to meet the strategy’s goals.16 In response to the GAO report,
USAID stated that it was developing an implementation plan for the strategy in consultation with the
Infrastructure Working Group, and that the plan would be issued by March 31, 2011. However, based on our
discussions with USAID officials and analysis of project documentation, we found that the implementation plan
was never completed. As a result, it was not clear which agency should take the lead in implementing the
2010 Water Strategy.
According to USAID, the Water Stakeholders Group is now in the process of revising the strategy. USAID
officials told us that other U.S. agencies, including the Departments of Defense, Agriculture, and State, do not
plan to play a significant role in water sector development in Afghanistan in the future and that USAID will now
be the lead agency for water sector development. They added that USAID began in September 2013 to create
a new water strategy for Afghanistan.17 The new strategy will reflect narrowed global USAID water priorities

increased emphasis on more efficient use of rainfall and improved efficiency and management of existing irrigation
systems, including private and farmer-owned micro-irrigation systems.
15 Officials stated that the “Background,” “U.S. Government Vision,” “Development Challenges,” “Cross-Cutting Themes,”

and “Conclusions” remain relevant.
16 U.S. Government Accountability Office, Afghanistan Development: U.S. Efforts to Support Afghan Water Sector

Increasing, but Improvements Needed in Planning and Coordination, GAO-11-138. Washington, D.C.; Government
Accountability Office, November 2010.
17USAID officials told us they are including input from USAID’s infrastructure, health, education, and agriculture sectors
and program offices.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                             Page 9
aligned with the Afghan government’s water sector priorities and will replace the 2010 Water Strategy. In
commenting on a draft of this report, USAID stated that this new strategy will be finalized within the coming
months.


FOUR USAID WATER SECTOR PROJECTS IMPLEMENTED SINCE FISCAL YEAR
2010 SHOW MIXED RESULTS IN MEETING THEIR GOALS AND OBJECTIVES

USAID officials stated that even though the agency did not meet all of the 2010 Water Strategy’s objectives,
some of the strategy’s goals have been realized through implementation of individual projects. However, four
USAID water sector projects implemented since fiscal year 2010 that we reviewed show mixed performance
results—some projects’ goals and objectives were met, while others were not. Therefore, USAID’s assertion that
the 2010 Water Strategy’s goals were realized through the implementation of individual projects is
questionable.


The Extent to Which AWATT Achieved its Objectives Is Unknown because of
Persistent Performance and Financial Management Problems
On March 3, 2008, USAID awarded a 3-year, $19.8 million cooperative agreement for the Afghanistan Water,
Agriculture Technology Transfer (AWATT) project to New Mexico State University (NMSU), in partnership with a
consortium of three other universities.18 The initial project’s stated objectives were to increase Afghans’ access
to information about water and agriculture technology, provide tools for policy and institutional changes that
enhance the management of the supply and demand of water resources, and develop a legislative framework
for land rights in rural areas. NMSU intended to address these objectives through three programmatic
components: integrated water management, technology transfer, and policy.
USAID changed the purpose and scope of AWATT midway through implementation in fiscal year 2009, as a
result of USAID and the implementer’s shared recognition that water management problems were rooted at
the farm level. As a result, project activities shifted to the farm level, rather than the policy and institutional
level, where they had been. USAID modified the cooperative agreement on July 21, 2010, to, among other
things, formalize a new objective for AWATT to improve community and farm level management of irrigation
water resources for increased agricultural productivity and food security.
Three prior oversight reports highlight a number of issues with the AWATT project. In December 2009, a third-
party monitoring report prepared by Checchi and Company Consulting, Inc. for USAID19 identified problems with
NMSU’s implementation of AWATT, including start-up delays and inadequate performance monitoring.20
Checchi wrote in its third-party monitoring report that NMSU did not establish performance baselines and



18 The three other universities involved with the AWATT cooperative agreement were Colorado State University, Southern

Illinois University Carbondale, and University of Illinois at Urbana-Champaign. These three universities and NMSU are
collectively referred to as the “implementer.”
19 Third-party monitoring consists of an external entity or firm monitoring USAID projects or programs and reporting the

results to USAID.
20 This  third-party monitoring exercise is a result of USAID/Afghanistan’s long-standing desire to overcome travel
restrictions and staffing limitations that have constrained its ability to go on-site to observe and check up on project
activities. In response to this perceived need, a team of expatriates and Afghan nationals was organized under the
auspices of the Checchi Services Under Program and Project Offices for Results Tracking project to carry out such
monitoring for the Office of Agriculture’s AWATT project. See Checchi and Company Consulting, Inc., Third Party Monitoring
Report for Afghanistan Water, and Agriculture Technology Transfer (AWATT) by USAID in the Islamic Republic of
Afghanistan, November 29-December 23, 2009.


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                           Page 10
targets21 that would allow it to assess progress toward meeting objectives. In February 2011, a USAID/OIG
report found that performance management issues remained and concluded that NMSU was not able to
assess the effectiveness of its technical assistance and training activities for the Afghan government.22 The
report further stated that NMSU faced shortcomings in its monitoring and evaluation of AWATT that reduced
the value of the project’s performance information. For example, NMSU submitted its first two performance
management plans late, omitted required information from the two performance management plans, did not
keep records to substantiate reported results, reported incorrect information, and did not explain performance
challenges in quarterly reports. The USAID/OIG report also raised concerns about the financial management of
the project, including questioning why a high proportion of AWATT funds were spent in the United States,
leaving fewer resources available for activities conducted on the ground in Afghanistan. To address these
concerns, USAID/OIG then contracted with an audit firm to conduct a financial audit of NMSU and its partner
universities. USAID/OIG subsequently issued an incurred cost audit report in April 2011, which found
unsupported travel costs of approximately $617,000, purchases totaling $111,216 that lacked approval
documentation, and missing or overdue programmatic reports.23
In reviewing the March 2008 AWATT cooperative agreement, we noted that performance problems and
deficiencies raised in prior oversight reports were not addressed by USAID and continued to persist. For
example, the March 2008 AWATT cooperative agreement required that NMSU develop, within 60 days after
award, a work plan with performance baselines and targets that would serve as the basis for measuring
progress toward meeting the project’s objectives. However, these requirements had not been met at the time
of Checchi’s third party monitoring report in December 2009, or even by the time of USAID/OIG’s performance
audit in February 2011, 14 months after Checchi’s report, and were still not addressed in subsequent AWATT
performance management documentation we reviewed. Despite the initial cooperative agreement
requirements and Checchi’s further recommendations that NMSU develop performance indicators, baselines,
and targets, we noted that NMSU’s final February 2011 performance management plan—developed 33
months after the original agreement—failed to include some of these items. For example, the final performance
management plan’s indicators for “net increase in private sector employment for farms and agribusiness,”
“percentage change in annual production of key crops,” and “percentage increase in water use efficiency at
selected farms” lacked baseline figures.
The NMSU performance management plan also required it to track and report on the performance indicators in
quarterly and annual reports and to provide those reports to the USAID Agreement Officer’s Technical
Representative. The February 2011 USAID/OIG report recommended that NMSU improve, and USAID verify, the
quality of information reported. However, our review of NMSU’s quarterly and final reports to USAID found that
NMSU did not address problems with reporting. For example, the indicators for “net increase in private sector
employment for farms and agribusiness,” “percentage increase in water use efficiency at selected farms,” and
“percentage change in annual production of key crops” were not reported on in fiscal year 2011.
USAID performance monitoring and evaluation guidance24 states that a lack of baseline data not only presents
challenges for management decision-making purposes, but also hinders evaluation efforts. Moreover, the
same guidance states that performance targets justify a project by describing in concrete terms what USAID’s


21A baseline is a value of a performance indicator before the implementation of projects or activities. A target is the
specific, planned level of result to be achieved within an explicit timeframe. See Performance Monitoring & Evaluation TIPS:
Baselines and Targets, 2nd Edition, 2010, USAID.
22USAID Office of Inspector General, Audit of USAID/Afghanistan’s Agriculture, Water, And Technology Transfer Program,
Audit Report No. F-306-11-001-P, February 13, 2011.
23USAID Office of Inspector General, Report on Audit of Incurred Costs of New Mexico State University USAID’s Afghanistan
Water, Agriculture and Technology Transfer Program for the Period March 31, 2008 to September 30, 2010, Report No. 0-
000-11-001-N (AWATT), April 12, 2011.
24   Performance Monitoring & Evaluation TIPS: Baselines and Targets, 2nd Edition, 2010, USAID.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                          Page 11
investment will produce and establish clear expectations for USAID staff, implementing partners, and key
stakeholders. Once a project is underway, targets serve as guideposts for monitoring whether progress is being
made on schedule and at the levels originally envisioned. By AWATT continuing not to have baselines and
targets or complete performance reporting, USAID and NMSU cannot fully assess the extent to which AWATT
results have been achieved.

NMSU Financial Management and Performance Problems Resulted in AWATT Ending Prematurely
In December 2010, NMSU and USAID discussed options for extending the AWATT project beyond its original
completion date of March 2011. NMSU subsequently submitted a 3-month no-cost extension proposal to
USAID to extend the project to June 2011. At the time, NMSU reported that it had spent approximately $12.7
million on the project through December 2010. NMSU also provided USAID with projected expenditures for the
remaining months of the agreement and told USAID that it would likely spend approximately $3.4 million more
to implement AWATT from January 2011 through the end of June 2011. USAID subsequently approved the no-
cost modification; as a result of NMSU’s projected expenditures, the new total estimated cost of AWATT was
now adjusted down to $16.1 million.
NMSU officials stated that shortly after the modification to the cooperative agreement was finalized, they
realized that the project was incurring a deficit and that the previously reported budget figures for 2010 end-of-
year expenditures were incorrect. NMSU had spent significantly more money than previously thought and was
now projecting a $1 million deficit in AWATT expenditures through the end of March 2011, and, in fact, it had
already spent about $17.1 million by the end of March 2011. As a result of this funding shortfall, NMSU did not
have enough funding to fully implement project activities already in progress. In April 2011, NMSU requested
that USAID provide an additional $2.4 million to complete AWATT.
USAID denied this request for additional funding, citing problems with NMSU’s financial management system,
which USAID determined did not comply with regulatory requirements to provide (1) accurate, current, and
complete disclosure of a project’s financial results; (2) records adequately identifying the source and
application of funds; and (3) effective control over and accountability for all funds.25 In a response letter to
USAID, NMSU argued that its financial management system was in compliance, explaining that it was unable to
accurately track costs because, in Afghanistan’s largely cash-based economy, NMSU’s financial management
system could not account for cash obligations to be spent in the future, but could only account for cash that
had been spent.
Despite USAID’s denial of additional funding, NMSU continued to undertake project activities without approval,
ultimately incurring a deficit of approximately $3 million that USAID did not reimburse. NMSU explained in an
August 2011 letter to USAID that it undertook these activities with the belief that adequate funding would
become available.26 When it became apparent to NMSU that USAID would not cover these expenses, NMSU
abruptly ended AWATT activities.
The 2010 U.S. Inter-Agency Water Strategy emphasizes that improved agricultural productivity and soil and
water conservation are key outcomes of U.S. government investment in Afghanistan’s water sector. However,
persistent problems throughout the implementation of AWATT, including poor implementer performance and
financial management, raise questions about the overall impact of project activities and the effectiveness of
the U.S. government’s $16.1 million investment to develop Afghanistan’s water sector. Most importantly,
because progress toward achieving these water strategy outcomes related to agricultural productivity was not
measured, AWATT’s impact on Afghanistan’s water sector as a whole is unclear.



25   22 C.F.R. § 226.21, Standards for Financial Management Systems.
26 New Mexico State University, Letter to USAID, Re: Afghanistan Water, Agriculture and Technology Transfer (AWATT)

Program Cooperative Agreement No. 306-A-00-08-00506-00, New Mexico State University, August 4, 2011.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                        Page 12
CAWSA’s Performance, as Measured against Indicators, Cannot be Completely
Determined, and USAID Delays in Managing the Cooperative Agreement Resulted in
Inefficiencies and Wasted Resources
On November 5, 2008, to assist in the commercialization of the urban water sector and increase cost recovery
and improve management, USAID awarded a 3-year, $8.5 million cooperative agreement to the International
City/County Management Association (ICMA)27 for the Commercialization of Afghanistan Water and Sanitation
Activity (CAWSA) project. The primary purpose of the project was to establish a viable business model for water
service delivery in Afghanistan by enhancing both technical and commercial operations at the corporation’s
water supply and sanitation utilities28 in Mazar-e-Sharif, Jalalabad, Gardez, and Ghazni. The business model
sought to establish a cost recovery29 system for operations that support long-term supply and sanitation
infrastructure, and to identify incentives to motivate water utility staff and improve overall Afghan water utility
performance.
The cooperative agreement was scheduled to end in November 2011. USAID modified the agreement three
times between 2011 and 2012, to increase project scope and funding, including extending CAWSA from May
2012 to May 2014, and raising the agreement’s total estimated cost to $14.2 million.
USAID performance monitoring and evaluation guidance30 states that performance indicators are central in the
development of an effective performance management system—they define the data to be collected, provide
objective evidence enabling results achieved to be compared with planned results over time, and are designed
to assist managers in achieving development impact. In addition, performance targets orient stakeholders to
the tasks to be accomplished and serve as guideposts for monitoring whether progress is being made on
schedule and at the levels originally envisioned.
Descriptions for how CAWSA performance is measured—to include establishment of performance indicators—
are included in the project’s Monitoring and Evaluation Plan and the memoranda of understanding between
ICMA and each of the water and sanitation utilities. The memoranda established specific performance
indicators, baselines, and targets for CAWSA to help measure both technical and management performance
goals.31 ICMA used five indicators to measure its technical performance.32 Table 4 lists those indicators and
corresponding targets and results.




27 ICMA provides technical and management assistance, training, and information resources in the areas of performance

measurement, ethics education and training, community and economic development, environmental management,
technology, and other topics to its members and the broader local government community.
28 The water supply and sanitation utilities within the Afghan Urban Water Supply and Sewerage Corporation national

network are referred to as Strategic Business Units. The Afghan Urban Water Supply and Sewerage Corporation oversees
six Strategic Business Units, and provincial water supply departments report to the nearest Strategic Business Unit. There
are 11 provincial water supply departments. The purpose of these water and sanitation utilities is to improve service
delivery and efficiently provide clean, potable water for their customers, and thereby, also improve access to water for the
communities they serve.
29 The “cost recovery ratio” as measured through the CAWSA project is the total value of revenues collected divided by

operating and maintenance expenses.
30   USAID, Performance Monitoring & Evaluation TIPS: Selecting Performance Indicators, 2nd Edition, 2010.
31   The indicators are the same for each of the utility’s memorandum of understanding with ICMA.
32 ICMA originally developed seven technical indicators. However, ICMA representatives told us that two technical
performance indicators were removed after ICMA and the utilities were not able to gather data to establish baseline figures
for “percentage reduction in water losses” and “quality of water” indicators.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 13
Table 4 - CAWSA Technical Performance Indicator Results
  Technical                Mazar-e-Sharif                    Jalalabad                       Gardez                        Ghazni
 Performance
  Indicators         Baseline   Target   Result   Baseline     Target    Result   Baseline    Target   Result   Baseline    Target   Result

Cost recovery          39%       85%     100%       32%         85%      94%       32%         85%     100%      42%        85%      93%
ratio

Percentage             11%       18%        23%     8%          15%      32%       18%         16%     33%       30%         24%     44%
increase in on-
time collection
payment for
service

Percentage             77%       83%        91%     16%         22%      19.6%     18%         21%     18%       22%         21%     26%
increase in
service area
coverage

Percentage             31%       37%     34.4%      27%         33%      30%       28%         32%     30.8%     52%         44%     64%
increase in
population
coverage

Percentage             13%       19%        24%     9%          15%      19%       59%         37%     63%       14%         13%     23%
increase in water
supply continuity

Source: SIGAR analysis of CAWSA program documentation.
Note: Red type added for performance targets missed.

    Our analysis of data from CAWSA’s progress reports and a monitoring and evaluation report33 conducted by an
    ICMA advisor shows that CAWSA generally met its technical performance targets. All four utilities met or
    exceeded their performance targets for three of the five technical performance indicators, including cost
    recovery ratios and percentage increase in on-time collection payment for service. ICMA and the utilities
    missed the performance targets for two of the indicators by approximately 2–3 percentage points.34 CAWSA’s
    achievements in increasing cost recovery ratios and on-time collection appear to show improved efficiency in
    the four utilities’ commercial operations. In addition, achievements in water supply continuity illustrate more
    efficient technical operations in providing Afghans with reliable water access in the cities of Mazar-e-Sharif,
    Jalalabad, Gardez, and Ghazni. These improvements reflect CAWSA’s goal of transforming the utilities into
    viable, efficient, and self-sustaining commercial enterprises.
    In addition to technical performance indicators, ICMA and the utilities developed 15 management performance
    indicators.35 Each management performance indicator within the memoranda of understanding includes the
    indicator itself, a scale with assigned numerical values (scores) to assess different levels of performance,

    33 Monitoring and Evaluation Report (Mazar-e-Sharif, Jalalabad, Gardez, Ghazni), April 2003 conducted by Dr. Admal Ayobi,

    ICMA Commercial Advisor. The report was conducted by an ICMA consultant 7–10 months after CAWSA support to the four
    original water and sanitation utilities ended.
    34 We did not evaluate project achievements in Kandahar and the four additional provincial water supply and sanitation

    utilities as CAWSA activities there are still ongoing.
    35   These original 15 indicators were consolidated to 12 indicators in the second quarter of 2011.



    SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                                 Page 14
criteria for assigning a score, baseline and target values, and additional indicator-specific ”remarks.” Table 5
presents three management performance indicators as provided in the memoranda of understanding.

   Table 5 - Examples of Utility Management Performance Indicators with Baselines and Targets
      Management          Implementer-Provided             Scale for Measuring
      Performance        Information for Indicatora               Indicatorb
           Indicator
                            [SIGAR description]            [SIGAR description]
   [SIGAR description]


   General Management    Remarks                                                       Baseline   Total      Target
                                                                                                  Possible   Score

   Human Resources       Water Supply Department         Staff responsibilities       0.5        4          3
                         must have complete job           unclear and unrelated to
                         descriptions and specify         goals = 0
                         minimum qualifications
                                                         Job descriptions exist
                         and training requirements.
                                                          but are not related to
                         An employee evaluation,
                                                          skills or evaluations = 1
                         compliance, and discipline
                         records must be designed        Job descriptions related
                         by February 2010, for            to skills or evaluations =
                         implementation by July           2–3
                         2010.                           Job descriptions related
                                                          to skills, evaluations,
                                                          and compensation, and
                                                          conflict resolution in
                                                          place = 4

   Information Systems   Current systems are             No system for collecting,    1          4          3.5
                         minimally adequate for           analyzing, disseminating
                         financial and inventory          data = 0
                         reporting but have not
                                                         Rudimentary system in
                         been maintained with the
                                                          place, not accessible to
                         accuracy required. Water
                                                          everyone = 1–2
                         Supply Department must
                         implement all the               System in place and
                         proposed MIS reports and         accessible, information
                         submit them on schedule          not used in planning and
                         to achieve the target score.     not disseminated = 3

                                                         System in place; data
                                                          collected, analyzed, and
                                                          reported; and feedback
                                                          used = 4

   Customer Access to    Billing records are minimal.   Accurate customer              0.5        1          1
   Water                 Must prepare monthly           tracking:
                         report that classifies all
                                                        No = 0
                         customers.
                                                        Yes = 1



                         No target for 1388.            New customers                  TBD        TBD        TBD




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                             Page 15
                                                       (planned growth)

                            Computerized procedure     Customer increases         0            1               1
                            must be in place.          tracked for planning:

                                                       No = 0
                                                       Yes = 1

      Source: Excerpt from CAWSA MOU program documentation for Mazar, Jalalabad, Gardez, and Ghazni
      Notes: SIGAR emphasis added
      a TheMOUs list “remarks” made by ICMA and the utilities on what to consider for measuring each indicator.
      b TheMOUs did not have a title for this column of information. We created this column title based on the information
      provided in the MOUs’ tables. This column describes the scale for measuring and scoring the performance of each
      management indicator.

USAID performance monitoring and evaluation guidance states that “it is particularly important to make sure
that indicator definitions are clearly defined. Indicators must be unambiguous about (1) what is being
measured and (2) what data are being collected.”36 However, we found that each indicator was not clearly
defined. The scope and definition of the indicators were often not clearly stated. In addition, indicator-specific
information and requirements provided in the “Remarks” section were not defined or captured in the scale,
with no additional guidance as to how to carry out these requirements. For example, as shown in table 5, the
human resources indicator “remarks” section mentioned the need for “training requirements,” “an employee
evaluation system,” and “discipline records,” but did not explain whether those aspects were also required to
be monitored and, if so, how they would be measured. Moreover, the scale for the “human resources” indicator
listed the same definition for scores of 2 and 3. Given this lack of clarity, we could not determine whether
indicator goals were being achieved, nor were we able to determine whether activities being performed were
adequately measured by the performance management indicators.
Based on our analysis of CAWSA’s performance against its established indicators, we determined that the
extent to which the project improved the water and sanitation utilities’ managerial capacity is unclear.

USAID’s Delays in Modifying the CAWSA Cooperative Agreement Resulted in Inefficiencies and Wasted
Resources
According to USAID guidance, the agency relies on Procurement Action Lead Times37 as metrics for managing
all procurement actions. USAID allocates 90 days to issue a modification to a cooperative agreement. While
these timeframes are an internal planning tool, according to USAID, they provide an important accounting of
the individual milestone actions needing to occur to ensure timely awards. USAID’s management of two CAWSA
modifications does not demonstrate adherence to this guidance.
For example, USAID’s management of CAWSA’s 2-year cost extension—extending CAWSA from May 2012 to
May 2014, and raising the agreement’s total estimated cost from $10.6 million to $14.2 million—for Kandahar
and the four provincial water supply departments resulted in significant delays that affected overall
implementation of the CAWSA. ICMA officials told us they began discussions with USAID on the 2-year cost
extension about 6 months prior to the projected end of the CAWSA,38 and followed up with a formal proposal
letter to USAID’s Office of Acquisition and Assistance in January 2012. USAID then requested that ICMA submit
a final proposal for a 2-year extension (May 2012 to May 2014) less than 1 month before the agreement’s

36   USAID, Performance Monitoring & Evaluation TIPS: Selecting Performance Indicators, 2nd Edition, 2010.
37Procurement Action Lead Times are estimated typical timeframes for contracting officers and agreement officers to
process acquisition and assistance actions.
38Prior
      to the discussion of a 2-year cost extension, USAID modified CAWSA with a 6-month no-cost extension from
September 2011 through May 2012.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 16
performance period ended.39 While USAID ultimately approved the extension on May 10, 2012, USAID officials
familiar with the project could not provide an explanation for this delay.
During the delay between ICMA’s submittal and USAID’s approval of the extension request, another USAID
office, the Office of Acquisition and Assistance, directed ICMA to submit a closeout plan for the existing CAWSA
period of performance. ICMA submitted the closeout plan in December 2011, and initiated project closeout
activities, such as notifying beneficiaries of the project’s conclusion, dismissing employees, disposing of
furniture and equipment and terminating contracts with vendors. By April 2012, CAWSA offices were closed,
and ICMA had dismissed project staff and disposed of property. Once USAID formally approved the 2-year
extension to CAWSA in May 2012, ICMA then had to remobilize activities, which entailed finding and leasing
new office buildings, acquiring office supplies, and locating and rehiring staff. According to ICMA officials, the
remobilization process took approximately 2 months.
In conclusion, while CAWSA generally met its technical performance goals for improving commercial operations
in Afghanistan’s water supply and sanitation utilities for the four original cities, the lack of clear management
performance indicators and a system for measuring against these indicators makes it difficult to determine
overall CAWSA performance for the original four utilities. The 2010 U.S. Inter-Agency Water Strategy
emphasizes that improved access to water supply and enhanced governance and management of the sector
are key outcomes of U.S. government investments. While CAWSA met a majority of its technical performance
goals, it is difficult to determine and analyze CAWSA’s performance in improving the water and sanitation
utilities’ managerial capacity, thereby preventing a complete determination of CAWSA’s success in achieving
project objectives. In addition, because progress toward achieving the broader water strategy outcomes related
to commercial water management was not measured, CAWSA’s overall impact on Afghanistan’s water sector is
unclear.


SWSS Did Not Meet Some Performance Goals, and Could Not Measure Other
Performance Goals Because Of Budget Cuts, Unrealistic Performance Targets, and
Higher-than-Estimated Costs
As part of the U.S. government’s effort to improve water supply and sanitation in Afghanistan’s rural areas, on
September 30, 2009, USAID40 awarded a 3-year, $51.9 million contract to Tetra Tech/Association for Rural
Development (ARD), Inc. (“Tetra Tech”) for the Sustainable Water Supply and Sanitation (SWSS) project. The
SWSS project had three components:
        Component 1—increase access to sustainable sources of clean water for domestic use among
         Afghanistan’s rural population;
        Component 2— improve hygiene behaviors for poor and vulnerable populations in Afghanistan; and
        Component 3— improve the long-term technical, financial, and environmental sustainability of potable
         water supply and sanitation services.
SWSS contract documents, as well as the project’s performance management plan, established performance
indicators for each of the project’s three main components in order to measure progress.
With regard to Component 1, the SWSS performance management plan and first contract modification
established five specific performance indicators and targets to measure water supply and sanitation


39ICMA’s proposal entailed a continuation of support for the Afghan Urban Water Supply and Sewerage Corporation’s
commercialization strategy with a greater focus on technical, managerial and administrative support, as well as support of
Kandahar and four provincial water supply departments, as their implementation period in the current agreement had been
very short.
40 USAID’s Office of Economic Growth and Infrastructure is the technical office responsible for project oversight of SWSS.

USAID’s Office of Acquisition and Assistance is responsible for contracting actions.


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                           Page 17
infrastructure built and rehabilitated, as well as Afghans’ access to improved water supply and sanitation
services. The performance indicators, targets, and results are listed in table 6 below.

Table 6 - Component 1: Water Supply and Sanitation Service Access
      Task Order Performance Indicators                  Targets         Cumulative Achievements               Results

Number of water systems installed or rehabilitated       10,000                      3,011                       30%
(well, spring boxes, catchment, etc.) from
Community-Led Total Sanitationa and response to
requests from other stakeholdersb

Number of piped water systems built or                      50                        37                         74%
rehabilitated

Number of sanitation facilities installed (in            50,000                     42,129                       84%
communities, schools, and health centers)

Number of people with access to improved water          717,500                    615,725                       85%
supply as a result of SWSS programming

Number of people with access to improved                500,000                    294,903                       59%
sanitation services as a result of SWSS
programming

Source: SWSS Final Report (“Task Order Performance Indicators,” “Cumulative Achievements,” and “Results”) and SWSS
Contract, Modification 1 (“Targets”)
Notes:
a Community-Led Total Sanitation is a sanitation approach that works by engaging whole communities in examining and

acknowledging the “extent and shamefulness” of open defecation, its importance in the transmission of diarrheal diseases,
and the costs of such disease to well-being and household finances. In turn, this educational engagement motivates the
community to achieve open-defecation-free status through ensuring that all households have access to a safe latrine and
that everyone uses it.
b Stakeholders included USAID’s Provincial Reconstruction Team/Field Program Officers, who would provide SWSS with

project site nominations.

Our analysis shows that SWSS failed to meet performance targets for all five indicators under Component 1.
This occurred for multiple reasons. First, Tetra Tech officials told us that the USAID performance target of
10,000 water systems installed or rehabilitated was unrealistic because of time and security constraints.
According to Tetra Tech officials, they told USAID that installing 10,000 water systems in the 3-year timeframe
was virtually impossible anywhere in the world, let alone in Afghanistan. Second, Tetra Tech officials stated
that project cost estimates for water system41 installation and rehabilitation—specifically, the cost for well
construction—were higher than USAID cost estimates as a result of the security constraints, and, therefore,
also affected their ability to meet the target of 10,000 water systems.42 Third, according to Tetra Tech officials,
USAID enacted an $8.5 million budget cut in the final year of implementation that negatively affected the
installation and rehabilitation of water and sanitation systems “at a time when demand for project services




41 According to USAID’s Request for Task Order Proposal for the SWSS project, wells are considered “water systems” as

measured by the “number of water systems installed or rehabilitated” performance indicator.
42In follow up discussions with USAID in December 2013, USAID officials told us they disagree with Tetra Tech’s
assessment that the original 10,000 target was unrealistic. However, they do agree that water system installation and
rehabilitation costs were higher than USAID had estimated.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                         Page 18
was at a peak.”43 As a result of the budget cut, Tetra Tech stopped construction of new or rehabilitated water
and sanitation systems for a period of 6 months in 2011, causing it to miss the performance targets. USAID
officials later agreed during implementation that the target for 10,000 water systems installed or rehabilitated
was unrealistic and, as early as April 2010, began discussing with Tetra Tech the need to submit a revised
performance target number. However, the target number was never addressed or updated.44
For Component 2, the SWSS contract established seven performance indicators to measure changes in
hygiene behavior, focusing on three key behaviors shown to improve health: (1) hand washing with soap at
critical times, (2) proper use of sanitation, and (3) household water treatment and safe storage. SWSS met or
exceeded the performance targets for five out of the seven indicators. For instance, the percentage of mothers
aware of “critical times for hand-washing” and mothers living in households with “soap at the place of hand-
washing” indicators exceeded targets by 35–44 percentage points. Significantly raising awareness of the
benefits of hand-washing and access to soap can reduce health risks associated with poor hygiene. For
example, the SWSS final report states that this behavior-change work was implemented in 36 districts and
assisted 611 communities in reaching open defecation-free certification.45 The full list of indicators, targets,
and results are in table 7.




43USAID officials told us that the project budget reduction took place as a result of a mission-wide review of projects and a
decision to cut the budget of those projects whose funds had not been fully obligated.
44 Tetra Tech submitted a formal request in July 2012 for a 3 month, no-cost extension to SWSS. The extension request

included a modification to the target number. While USAID approved the no-cost extension, it did not address the request to
modify the target for “number of water systems installed or rehabilitated.”
45Follow-up inspections by other NGOs of open defecation-free villages 6–9 months after certification indicated that less
than one percent of communities had any evidence of open defecation. UNICEF defines “open defecation free” as when
“no feces are openly exposed to the environment.”


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                            Page 19
Table 7 - Hygiene Education and Promotion (Component 2): Performance Indicators, Targets, and Results for
Community-Led Total Sanitation Areas
         Task Order Performance Indicators                   Performance Indicator Targetsa               Final Report Results

Percentage of households having children aged 0–59          18.5%                                    64.9%
months are practicing effective household water
treatment

Percentage of households having children aged 0–59          73.9%                                    80.4%
months correctly store drinking water treated at the
household

Percentage of mothers of children aged 0–59 months          37.5%                                    72.5%
know all critical times for hand washing

Percentage of mothers of children aged 0–59 months          90.0%                                    59.2%
live in households with a specific place for hand
washing

Percentage of mothers of children aged 0–59 months          34.8%                                    78.0%
live in households with soap at the place of hand
washing

Percentage of households having children aged 0–59          85.0%                                    39.4%
months have access to an improved sanitation facility

Percentage of households with children aged 0–59            36.9%                                    100.0%
months using an improved sanitation facilityb

Source: SWSS targets derived from contract modification one, and results derived from the SWSS Final Report.
Notes:
a Targets  established in Performance Management Plan and Modification 1 to SWSS contract.
b The indicator listed in the Final Report states: “Percentage of households that have an improved sanitation facility and use it.”
This is different from the original indicator.

   With regard to Component 3, which focused on improving local community capacity for managing water
   resources, Tetra Tech officials told us that the $8.5 million budget cut USAID implemented in 2012 also
   affected their activities. The SWSS performance management plan and contract established two performance
   indicators46 and targets to measure improvements under this component. According to Tetra Tech officials,
   they planned to conduct a customer satisfaction survey and a sustainable financial evaluation in the 3rd year to
   determine progress achieved under both indicators. However, neither activity could be conducted due to the
   budget cut. Without the results from the survey and evaluation, Tetra Tech and USAID did not have the
   necessary performance data to measure whether all of the necessary activities were carried out under
   Component 3. As a result, USAID could not determine whether the activities in Component 3 related to local
   management capacity building—and the approximate $882,549 dollars budgeted to these efforts—met the
   intended goals.
   The 2010 Water Strategy emphasizes that improved access to water supply and sanitation and associated
   hygiene behaviors are key outcomes of U.S. government investments. While SWSS demonstrated


   46 These performance indicators are (1) percent of consumer satisfaction score, and (2) number of community water

   systems with functioning management committees and sustaining long-term financing.



   SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                              Page 20
achievements pertaining to hygiene promotion and health benefits, shortfalls pertaining to water supply and
sanitation service access exemplify a project with mixed results overall. In addition, because progress toward
achieving the broader water strategy outcomes related to sustainable water supply and sanitation was not
measured, SWSS’s overall impact on Afghanistan’s water sector is unclear.


USAID Spent about $3.5 Million for 27 Watershed Assessments That It Did Not Use
as Originally Intended
On January 1, 2009, USAID’s Office of Economic Growth and Infrastructure entered into a Participating Agency
Service Agreement with USACE to identify, plan, design, and implement infrastructure projects and related
engineering, construction, and capacity building activities. The agreement allowed for “special projects,” in
which USACE would provide services such as reports, studies, surveys, and other technical staff support
services. As one of these special projects, the Office of Economic Growth and Infrastructure funded a series of
watershed assessments to be conducted by USACE. According to the water strategy, the assessments would
provide an important foundation to “identify high priority areas for investment” and to “prioritize watersheds for
activity implementation and coordination.”47
USACE conducted watershed assessments for 27 of 2848 Afghan provinces at a cost to USAID of approximately
$3.5 million. According to the USAID–USACE agreement, the purpose of these assessments was to identify
potential sites for small irrigation dams and micro-hydropower projects across Afghanistan. USAID intended to
use the assessments to guide future water sector development. In addition, the watershed assessments were
to provide assistance to military units, provincial reconstruction teams, and agribusiness development teams
conducting water resource improvement projects in Afghanistan. Recommendations and other information in
the watershed assessments were meant to be shared with and used by Afghan ministries such as the Ministry
of Energy and Water; Ministry of Agriculture, Irrigation, and Livestock; and the Ministry of Rural Rehabilitation
and Development for watershed management and to make long-term improvements.
Although USACE completed these assessments in 2011, there is little evidence that they were used as
originally intended or shared in a timely manner. In one example, USAID officials stated that the assessments
were to have supported a new $653 million USAID water sector project—the Water Resources Development
Program—that would survey, design, and construct small dams for irrigation, hydropower, and water supply,
among other things. However, USAID officials told us the project was canceled because of insufficient funding.
In addition, as of May 2013—almost 1 ½ years after completion of the final watershed assessment—USAID
officials told us they were still deliberating how best to use the assessments. USAID and USACE officials added
they were not aware of the assessments having informed any specific water projects during this time, as
originally intended. Some watershed experts49 believe that a watershed’s physical characteristics change over
time as a result of environmental or man-made conditions, and USAID officials acknowledged that determining
whether an assessment’s information is still applicable to use would require understanding current conditions
on the ground. As a result, the assessments could already be, or could readily become, outdated, thereby
diminishing their value for developing water resource improvement projects.


47 U.S. Government Inter-Agency Water Strategy for Afghanistan 2009-2014: A Strategic Approach to Support a Secure

and Self-Reliant Afghanistan, To Foster Afghan Solutions, and To Build Afghan Capacity, February 2010.
48 Although a watershed assessment of the Kabul province was required under a January 2010 modification to the USAID–

USACE agreement, no assessment was conducted. USAID officials told us that a watershed assessment for Kabul province
had been conducted by USACE in 2009, prior to USACE’s agreement with USAID. Our review of the 2009 watershed
assessment, however, indicates that the assessment only covered certain locations within Kabul province rather than the
Kabul province as a whole.
49
 Thomas C. O'Keefe, James M. Helfeld, and Robert J. Naiman, University of Washington, Agents of Watershed Change.
Retrieved from U.S. Environmental Protection Agency, Watershed Academy Web, Distance Learning Modules on Watershed
Management, http://www.epa.gov/watertrain."


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                      Page 21
It is also unclear to what extent USAID shared these assessments with other agencies and stakeholders. For
example, minutes from meetings of the U.S. Water Stakeholders Group50 show that the assessments were not
discussed until the February and March 2013 meetings, 2 years after the first assessments were completed in
February 2011. Afghan government ministries have also received little benefit from the watershed
assessments until recently. USAID officials told us that assessments were not shared with the Afghan Ministry
of Energy and Water until July 2013, after our initial interviews with USAID and over 1 year after a request by
the Deputy Minister of Energy and Water to receive copies of the assessments in order to plan for the design
and construction of dams. According to USAID officials, sharing the assessments was difficult because, after
transmitting the assessments and their underlying data to USAID, USACE determined that the assessments’
raw data was classified.51 As a result, USAID did not have easy access to the detailed raw data collected and
did not share the information from the 27 watershed assessments in a timely manner.
USAID officials stated that the root cause of the delay was USACE’s use of classified data for analysis and
proprietary software, of which USAID was unaware. As a result, USAID was required to review each report and
provide assurance that no classified information was disclosed. After USAID’s review and consultation with
USAID’s Regional Legal Office and Office of Financial Management, USAID shared the assessments with
Afghan Ministries—such as the Ministry of Energy and Water—and the broader donor community, including the
World Bank and the Asian Development Bank. USAID officials also stated that USAID is now using the
assessments as background information in preparing for the development of two watershed Master Plans, as
well as USAID’s Irrigation and Watershed Management Program.


CONCLUSION

Since March 2006, USAID has invested approximately $580 million to develop Afghanistan’s water sector. The
2010 U.S. Government Inter-Agency Water Strategy for Afghanistan was intended to be an up-to-date
document outlining a coordinated U.S. government effort for development of Afghanistan’s water sector.
However, USAID—the key U.S. government agency implementing water projects in Afghanistan—did not meet
three key provisions of the water strategy. Namely, it did not develop a work plan, measure progress toward the
strategy’s goals, or update the strategy.
Without a work plan that links projects and activities to short-, medium-, and long-term goals cited in the
strategy, it is unclear the extent to which individual USAID projects contribute to the broader U.S. government
efforts to develop Afghanistan’s water sector, and may make it more difficult for the agency to plan and
implement ongoing water sector development efforts. Although USAID officials asserted that some of the
strategy’s goals have been realized through implementation of individual projects, the four projects we
reviewed showed mixed results. Consequently, USAID’s assertion that some of the water strategy’s goals were
indeed realized is questionable. By not measuring progress toward achieving project goals, USAID cannot
determine how its work achieves the water strategy’s goals. Lastly, by failing to update the strategy to reflect
current priorities, USAID risks planning and implementing water projects that are not aligned with its goals for
developing Afghanistan’s water sector.




50 The U.S. Water Stakeholders Group is a group of representatives from USAID and the Departments of State, Agriculture,

and Defense that was established by the U.S. Embassy in Kabul’s Economic Section to coordinate water projects.
51 USACE officials stated that the raw data was deemed classified because it included specific geo-coordinates for site

locations.



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                          Page 22
RECOMMENDATIONS

As the only U.S. government agency with an enduring role in future water sector activities in Afghanistan and
because of the critical role that access to water plays in the country’s reconstruction, we recommend that the
USAID Administrator:
    1. Develop a new water sector strategy for Afghanistan with updated short-, medium-, and long-term
       goals and objectives that reflect USAID’s current water sector priorities;
    2. Develop and implement a performance measurement plan upon completion of the new strategy that
       can be used to evaluate USAID’s performance in meeting the new strategy’s goals and objectives; and
    3. Ensure this strategy includes clear lines of responsibility and accountability within USAID for
       implementing the strategy.


AGENCY COMMENTS

We received written comments on a draft of this report from USAID, which are reproduced, along with our
detailed responses, in appendix II.
USAID agreed with our three recommendations and stated that it approaches the water sector
comprehensively with activities that target agriculture, water conservation, sanitation, governance,
management, hydropower, and trans-boundary policy. USAID commented that, over the past 5 years, U.S.
government efforts, in which USAID has played a major part, have made substantial progress in Afghanistan’s
water sector and provided several examples of its achievements.
With regard to our first recommendation, USAID commented that it has drafted a new water strategy for 2014-
2018 that is expected to be approved within the coming months. According to USAID, the new water strategy
will provide the framework for its $350 million, multi-sector approach to implementing water programs in
Afghanistan.
USAID also agreed with our second recommendation that it develop and implement a performance
measurement plan upon completion of the new strategy, which could then be used to evaluate USAID’s
performance in meeting the new strategy’s goals and objectives. USAID commented that its new “Mission
Performance Management Plan” includes indicators to measure the effectiveness of programs benefitting the
water sector.
In addition, USAID agreed with our third recommendation that it ensure the new water strategy include clear
lines of responsibility and accountability of who within USAID will implement the strategy. USAID commented
that the new water strategy will be implemented and updated by a “Mission Water Working Group.” However,
USAID’s comments do not describe what entities will be included within this working group.
USAID requested that we close all three recommendations because of the actions it has already taken to date.
We commend USAID for its actions to develop a new water strategy. Nevertheless, in our view, it is premature
to close the three recommendations because the new water strategy is still in draft form, as USAID
acknowledges in its comments. We will review the new strategy when it is finalized and will make a
determination at that time whether it is appropriate to close the recommendations.
USAID also provided technical comments that we incorporated into the report, as appropriate.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                Page 23
APPENDIX I - SCOPE AND METHODOLOGY

In February 2013, the Special Inspector General for Afghanistan Reconstruction (SIGAR) initiated an audit of
the U.S. Agency for International Development’s (USAID) water sector projects in Afghanistan since fiscal year
2010. Specifically, SIGAR evaluated the extent to which: (1) USAID met key requirements of the 2010 U.S.
Government Inter-Agency Water Strategy for Afghanistan, and (2) four USAID water projects implemented
since 2010 have met their project goals and objectives.
Our initial audit scope consisted of nine USAID water sector projects completed, ongoing, or planned since
fiscal year 2010. We narrowed our focus to four projects that were complete or ongoing: Afghanistan Water,
Agriculture and Technology Transfer (AWATT); Commercialization of Afghanistan Water and Sanitation Activity
(CAWSA); Sustainable Water Supply and Sanitation (SWSS); and watershed assessments conducted under a
USAID–U.S. Army Corps of Engineers (USACE) Participating Agency Service Agreement. The remaining five
projects were either recently initiated or had relatively small water-related components that focused on
capacity building and training for the Ministry of Energy and Water. See table 8.

Table 8 - Five USAID Water Sector Projects Funded since Fiscal Year 2010 Not Included in the Audit
    Project          Description and Purpose                Cost*          Period of        Reason for Scope
                                                                          Performance          Omission

Human Resource    Provide a broad range of human        $81,406,830      3/1/2006 to       According to USAID,
and Logistical    resources and logistical support to                    4/30/2011         the water sector-
Support II        help USAID design, monitor, guide,                                       specific component of
                  and support the activities of other                                      the Human Resource
                  contractors; and consulting                                              and Logistical Support
                  services to the USAID/Afghanistan                                        II totals approximately
                  and Government of Afghanistan. A                                         $3 million of the over
                  portion of work is related to the                                        $81 million program.
                  water sector, mainly the Ministry
                  of Energy and Water.

Engineering       Provide professional architect,       $61,345,492**a   4/18/2011 to      According to USAID,
Quality           engineering, quality assurance                         4/17/2014         the water sector-
Assurance and     services, and other logistical and                                       specific component of
Logistical        technical support across all                                             the Engineering
Support           USAID/Afghanistan’s transport,                                           Quality Assurance and
(EQUALS)          energy, and water and sanitation                                         Logistical Support
                  sectors. The program also                                                program totals
                  provides capacity building and on-                                       approximately $3
                  the-job training to the key Afghan                                       million of the more
                  ministries involved in the energy,                                       than $61 million
                  roads, and water sectors.                                                spent on the program.

Kabul Urban       A multi-donor effort, led by the      $20,000,000**    4/26/2013 to      Kabul Urban Water
Water Supply      German Development Bank, to                            12/31/2016        Supply: implemented
                  improve water management and                                             by the German
                  to expand the potable water                                              government through
                  supply in Kabul.                                                         KfW, began in April
                                                                                           2013.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                Page 24
Irrigation and      Address the Afghan government’s        Off-budget:          12/21/2012 to         Irrigation and
Watershed           capacity to: (1) better manage         $129,963,114         12/20/2017            Watershed
Management          water resources to improve                                                        Management began in
Program             agricultural production, (2)           On-budget:                                 January 2013 and,
                    improve coordination within            $100,000,000**b                            according to the
                    Ministry of Agriculture, Irrigation                                               implementing partner,
                    and Livestock and other                                                           was conducting start-
                    ministries, (3) implement irrigation                                              up activities during
                    and watershed management                                                          February–April 2013.
                    activities in a “learning by doing”
                    approach for later replication, (4)
                    implement the 2009 Water Law,
                    including participatory approaches
                    to water management, and (5)
                    strengthen institutional capacity to
                    design and execute irrigation and
                    watershed management activities.

Ministry of         Increase the capability of the         $37,000,000**        TBDc                  According to USAID,
Energy and          Ministry of Energy and Water                                                      the Ministry of Energy
Water Capacity      Capacity Building, Da Afghanistan                                                 and Water Capacity-
Building            Breshna Sherka (the Afghan                                                        Building program has
                    electric utility), and other higher                                               not been awarded.
                    education institutions to carry out
                    their core responsibilities in the
                    energy and water sectors.

Source: Contract Documentation and USAID Data Call Responses
Notes:
* USAID-reported expenditures as of February 2013.
** This USAID project is ongoing, recently begun, or planned, and thus, the costs refer to the total estimated cost of award.
a Of the obligated amount for EQUALS, approximately $3 million is budgeted for water activities covering April 2011 to April

2013.Of the obligated amount for EQUALS, approximately $3 million is budgeted for water activities covering April 2011 to
April 2013.
b Off-budget funds are funds provided by the U.S. government directly to a contractor for work performed on a contract. On-

budget funds are funds provided directly to the Afghan government.
c USAID reported that as of February 2013, dates for the project were still to be determined.




To evaluate the extent to which USAID implemented the 2010 U.S. Government Inter-Agency Water Strategy
for Afghanistan, we reviewed relevant guidance, including the 2010 U.S. Government Inter-Agency Water
Strategy for Afghanistan and the 2013–2018 USAID Water and Development Strategy. We also reviewed a
November 2010 Government Accountability Office audit report and documentation related to the USAID Water
Resources Development Program. We interviewed officials at USAID’s Offices of Economic Growth and
Infrastructure, Acquisition and Assistance, and Agriculture. We also interviewed officials at the U.S. Embassy
Kabul Economic Section; Embassy Infrastructure Working Group; and Embassy Water Stakeholders Group. In
addition, we interviewed representatives from the World Bank, Asian Development Bank, and KfW. We
interviewed representatives from the Government Accountability Office and the U.S. Department of Agriculture.
To evaluate the extent to which the four projects have met USAID’s project goals and objectives, we (1)
assessed USAID’s performance monitoring/management, and (2) analyzed information on project
performance. To evaluate USAID’s performance monitoring/management of each project, we reviewed relevant
USAID monitoring and evaluation guidance; identified project performance indicators as indicated by



SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                           Page 25
contract/cooperative agreement documentation; identified baselines and proposed targets for the indicators, if
available; identified results reported by the implementing partner on the indicators and compared results
against the target set; and reviewed USAID monitoring/evaluation activities for any identified gaps in results
and targets. To evaluate overall project performance, we identified project goals and objectives and associated
project activities as defined by the contract/cooperative agreement’s statement of work and subsequent
modifications; analyzed gaps between required project activities and actual reported activities; compared
reported results to project goals and objectives; determined reasons for gaps between required activities and
reported activities, as well as project goals and objectives and reported results; and evaluated overall project
success in achieving intended project goals and objectives.
To evaluate the extent to which AWATT met project goals and objectives, we reviewed the AWATT cooperative
agreement and subsequent modifications, two previous oversight reports by the USAID Office of Inspector
General, and a third-party monitoring report by Checchi and Company Consulting, Inc. We reviewed AWATT
annual work plans and performance management plans; a final report, as well as quarterly and annual
progress reports submitted by New Mexico State University (NMSU); and written communication between
USAID and NMSU regarding changes in project scope. We interviewed NMSU representatives and the former
NMSU Chief of Party; officials from USAID’s Office of Acquisition and Assistance and Office of Agriculture; and
representatives from the Afghan Ministry of Agriculture, Irrigation and Livestock.
To evaluate the extent to which CAWSA met project goals and objectives, we reviewed the CAWSA cooperative
agreement and subsequent modifications; quarterly and annual progress reports submitted by the
International City/County Management Association (ICMA); CAWSA annual work plans; and Memoranda of
Understanding signed by Afghan water and sanitation utilities. We reviewed USAID guidance pertaining to
procurement action lead times. We interviewed ICMA representatives, including the Chief of Party for the
CAWSA project, and officials from USAID’s Office of Economic Growth and Infrastructure and Office of
Acquisition and Assistance. The technical and management performance indicators were reported in annual
reports as a percentage achieved toward meeting the targets established in the Memoranda of Understanding.
To determine what these percentages meant we reviewed the Memoranda of Understanding for the
established technical and management performance indicators and the system of measurement used by the
water and sanitation utilities. These agreements provide the guiding documentation for measuring the
performance of the sanitation and water utilities progress toward meeting the indicator goals. We requested all
project documentation from USAID; the Memoranda of Understanding were the only documents that contained
definitions for the indicators. The technical performance indicators and the system of measurement used were
clearly defined. However, the management performance indicators and the system of measurement were not.
The memoranda of understanding documents provide the 15 management performance indicators, criteria for
their measurement, baseline and target values, and additional indicator specific information; for our analysis,
we first reviewed all 15 indicators in each of the four memoranda for weaknesses, and identified several
categories. These categories were: terminology without definitions; unclear descriptions and definitions for the
indicators and scales; non-unique “scores;” and undefined “scores” for baselines and targets. We then
compiled all 15 indicators for each of the 4 utilities into a single spreadsheet for analysis and evaluated the
indicators to determine whether the categories identified above were present.
To evaluate the extent to which the SWSS project met project goals and objectives, we reviewed the SWSS
contract and subsequent modifications, SWSS annual work plans and performance management plans, and
quarterly and annual progress reports submitted by Tetra Tech/Association for Rural Development, Inc. We
reviewed written communication between USAID’s Office of Economic Growth and Infrastructure and Office of
Acquisition and Assistance and Tetra Tech representatives. We interviewed Tetra Tech representatives and
officials from USAID’s Office of Economic Growth and Infrastructure and Office of Acquisition and Assistance.
To evaluate the extent to which the watershed assessments under the USAID–USACE Participating Agency
Service Agreement met goals and objectives, we reviewed the USAID–USACE agreement and subsequent
amendments; USAID directives pertaining to interagency agreements; and watershed assessment reports for


SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                Page 26
27 provinces. We interviewed a USACE official, officials from USAID’s Office of Economic Growth and
Infrastructure and Office of Acquisition and Assistance, the U.S. Embassy Infrastructure Working Group, the
U.S. Embassy Water Stakeholders Group, and the Afghan Ministry of Energy and Water. We also reviewed
minutes from Water Stakeholders Group meetings.
The documents we reviewed covered the period from March 1, 2006, to May 21, 2013. We conducted our
audit work in Kabul, Afghanistan, and Washington, D.C., from February 2013 to March 2014, in accordance
with generally accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This audit was performed by SIGAR under the authority
of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                              Page 27
APPENDIX II - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




SIGAR 14-52-AR/Afghanistan’s Water Sector                       Page 28
                                                                    2


                    • Creating more than 400,000 urban-household water connections.
                    • Providing irrigation and improved watershed management on more
                      than 47,142 hectares, which is 377% of the target of 12,500 hectares
                      set out in the water strategy.
                    • Giving the Afghan Ministry of Energy and Water technical capacity to
                      design and construct five multipurpose dams, valued at $350 million,
                      through government budget and management systems.

                   US AID is one of five USG agencies responsible for developing and
                   implementing the 2009-2014 Inter-Agency Water Strategy for
                   Afghanistan that supports water sector needs from the Afghanistan
                   National Development Strategy and the National Priority Programs.
                   USAID implemented the lion' s share of the USG strategy activities in
                   support of these Afghan priorities, and targeted 16 out of 18 short-, mid-,
                   and long-term strategic goals.1

                    USAID uses multiple implementation mechanisms and partners to
                    achieve these sector-level strategic goals. For each of these mechanisms,
                    USAID executes individual work plans, typically for programs running
                    for three to five years. By requirement and design, these work plans feed
                    into the mission-wide USAID results framework that measures progress
                    toward all development goals, including water. The lack of an additional
                    agency work plan has had no impact on USAID ability to achieve results                               .-------::-,...-:=--:c=-1

                    in the water sector, and the cancellation of the multi-activity Water
                    Resources Development Program had no impact on USAID ability to
                    monitor and link these achievements to the inter-agency water strategy
                    goals, as SIGAR suggests in the report.

                    A new USAID water strategy is being finalized and will guide mission
                    water sector activities from 2014 to 2018. The new strategy will update
                    the previous inter-agency strategy ahead of its December 2014 conclusion
                    to reflect changes in the operational environment. While the inter-agency
                    strategy was not updated previously, USAID is operationalizing a water                                     see SIGAR
                    strategy as a "living document" that can be reviewed on a rolling basis                                    comment 2
                    and respond to changing needs in Afghanistan's water sector, contrary to
                    SIGAR' s statement otherwise.



                    1 The two goals left uncompleted are I) to construct 200 MW in large-scale hydropower dams, and 2)
                    development of an inter-agency aggregate work plan, which the strategy was later, deemed to have
                    fulfilled.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                                                        Page 29
                   SIGAR suggests USAID should have evaluated its projects' performance
                   against the inter-agency strategy goals. As the inter-agency water
                   strategy still has seven months remaining in 2014, a full and final
                   evaluation ofUSAID performance against the strategy would not be             see SIGAR
                   appropriate until the timeframe of the inter-agency strategy has             comment 3
                   concluded. While the inter-agency water strategy recommends a mid-
                   term and final evaluation, USG stakeholders decided instead to hold
                   meetings every two months as a way to evaluate performance more
                   frequently, rather than executing a formal mid-term evaluation. During
                   these meetings, the strategic objectives for the water sector were also
                   appraised and monitored. Contrary to SIGAR's assertion that certain
                                                                                              see SIGAR
                   objectives should have been removed, commercial water and sewer
                                                                                              comment4
                   systems continue to be stated priority areas for Afghanistan in both the
                   previous and in the new water strategies.

                   USAID also evaluates its performance against the inter-agency strategy
                   by measuring the achievements of individual programs as they are
                   completed and linking them to strategy goals. In particular, the
                   Sustainable Water Supply and Sanitation (SWSS) project met or
                   exceeded the performance targets for five out of seven indicators for
                   hygiene education and promotion. For instance, the percentage of
                   mothers aware of "critical times for hand-washing" and mothers living in
                   households with "soap at the place of hand-washing" indicators exceeded
                   targets by 35 and 44 percentage points, respectively. Significantly raising see SIGAR
                   awareness of hand-washing and access to soap has been demonstrated to comment 5
                   reduce health risks associated with poor hygiene. The SWSS fmal report
                   states this behavior-change work was successfully implemented in 36
                   districts and assisted 611 communities in reaching open defecation-free
                   certification.

                   Finally, the SIGAR report repeats concerns raised in October 2013 about
                   the low use and dissemination of 27 watershed assessments. Attached is
                   the letter USAID sent to SIGAR on this issue (Attachment I). In fact, the
                   watershed assessments USAID commissioned have been widely shared
                   and used with numerous partners and entities, including the Ministry of
                   Energy and Water, Ministry of Agriculture, Irrigation, and Livestock,
                   World Bank, Asian Development Bank, UK Department for International
                   Development, Japanese International Cooperation Agency, German
                   Development Bank, and the UN Food and Agriculture Organization,
                   among others. As demonstrated by the number of organizations that have         see SIGAR
                   accessed and are using these assessments, the benefit provided by these        comment 6
                   assessments is not "outdated and of limited value" as SIGAR states, but is
                   in fact accelerating as donor and governmental programs receive new




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                   Page 30
                                                       4



                    water development funding and use the USAID assessments to help
                    design programs.


                    RESPONSE TO SIGAR'S RECOMMENDATIONS

                   As the only US. government agency with an enduring role in future water
                   sector activities in Afghanistan and because of the critical role that
                   access to water plays in the country's reconstruction, we recommend that
                   the USAID Administrator:

                    (1)   Develop a new water sector strategy for Afghanistan with updated
                          short-, medium-, and long-term goals and objectives that reflect
                          USAID 's current water sector priorities


                    USAID Comments: The Mission concurs with Recommendation I and
                    will develop goals and objectives for the water sector appropriate to
                    mission programming and timelines.

                    Actions Taken/Planned:
                    USAID has drafted a "Mission Strategy for Water (2014-2018)" for
                    Afghanistan. The strategy is expected to be approved within the coming
                    months and will follow the U.S. Government Inter-Agency Water
                    Strategy for Afghanistan, 2009-2014.

                    The new water strategy is no longer focused on counter-insurgency and
                    follows USAID development processes with identified indicators for
                    measuring success which will be reported to the USAID Water Office in
                    Washington, DC, and tracked in the Agency Water and Development
                    Strategy Goals. The strategy will provide the framework for the USAID
                    $350 million, multi-sector approach to implementing water programs in
                    Afghanistan. It builds on lessons learned from past projects and provides
                    a sector-wide approach to water programming by increasing access to and
                    strengthening effective management of Afghan potable and productive
                    water sources.

                    The new water strategy is aligned with the Government of the Islamic
                    Republic of Afghanistan's (GIRoA) National Priority Programs (NPPs)
                    and the priorities of the water donor community.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                       Page 31
                                                       5



                   Target Closure Date:

                   Based on the above, we request SIGAR's concurrence to the closure of
                   Recommendation I.
                                                                                               see SIGAR
                                                                                               comment 7
                   (2) Develop and implement a peiformance measurement plan upon
                   completion ofthe new strategy that can be used to evaluate USAID 's
                   performance in meeting the new strategy's goals and objectives

                   USAID Comments: The Mission concurs with Recommendation 2.

                   Actions Taken/Planned:
                   The new Mission Performance Management Plan (PMP) includes
                   indicators to measure the effectiveness of programs benefitting the water
                   sector. The indicators cover a broad range within the water sector,
                   including sanitation, hygiene, irrigation, energy and infrastructure.

                   USAID integrates water sector reporting into the Mission PMP to
                   effectively manage water activities. All USAID programs, including
                   water activities, are required to have a PMP that is monitored by the
                   Contracting Officer's Representative (COR) or Assistance Officer's
                   Representative (AOR) and implementing technical team. The CORJAOR
                   and technical team report activity performance to the mission in order to
                   provide ongoing evaluation at both activity and strategic levels. These
                   standard monitoring practices allow USAID to assess its performance of
                   the new water strategy.

                   Target Closure Date:

                    Based on the above, we request SIGAR's concurrence to the closure of
                                                                                               see SIGAR
                    Recommendation 2.
                                                                                               comment 8

                    (3) Ensure this strategy includes clear lines of responsibility and
                    accountability ofwhom within USAID will imp lement the strategy

                    USAID Comments: The Mission concurs with Recommendation 3.

                    Actions Taken/Planned:
                    The new Mission Water Strategy will charge the Mission Water Working
                    Group with implementing and updating the water strategy. A description
                    of proposed mechanisms will be given in the Water Concept Paper and
                    includes the USAID office responsible for managing each future activity.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                  Page 32
                                                         6




                   Target Closure Date:

                   Based on the above, we request SIGAR's concurrence to the closure of   see SIGAR
                   Recommendation 3.                                                      comment 9

                   Please see attachments for further clarification.


                   Attachment:
                         I: USAID response to SIGAR Alert Letter 14-4 on Watershed
                        Assessments

                   Appendix:
                        I: Technical Comments
                        2: Table: U.S. Inter-Agency Water Strategy Goals, Outputs, and
                        Outcomes



                   cc: U.S. Embassy/Kabul Coordination Directorate




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                             Page 33
    SIGAR’s Response to Comments from the U.S. Agency for International Development, dated April 16, 2014
    1. Contrary to USAID’s assertion, our draft report did not state that the lack of an additional agency work
       plan affected USAID’s ability to achieve results in the water sector. Instead, we stated that the lack of
       the work plan as called for by the 2010 Water Strategy made it difficult to determine how the results
       of individual water projects contributed to broader U.S. government water sector development efforts.
    2. Our draft report did not suggest, as USAID commented, that its water strategy cannot be reviewed on a
       rolling basis and respond to changing needs in Afghanistan’s water sector. On the contrary, the draft
       report only stated, as USAID acknowledges in its comments, that the 2010 Water Strategy was not
       updated.
    3. USAID states in its comments that a full and final evaluation of its performance against the 2010
       Water Strategy is premature, given that the strategy’s completion at the end of 2014 has not yet been
       reached. Nevertheless, our point remains valid that, without a detailed work plan as called for by the
       2010 Water Strategy, it is difficult to determine how individual water projects contributed to broader
       U.S. government water sector development efforts in Afghanistan.
    4. Our draft report did not assert that USAID had completely eliminated commercial water and sewer
       systems as objectives. Instead, we stated that USAID’s priorities had shifted from favoring large
       infrastructure projects toward building capacity at Afghan ministries to manage these projects
       themselves.
    5. We presented these project achievements in both the draft and final report. (See pp. 19–21 of this
       report.)
    6. As our draft report acknowledges, the watershed assessments were eventually shared with Afghan
       ministries and the broader donor community. Nevertheless, it remains the case that these
       assessments were not shared widely until, in some cases, 2 years after their completion. We maintain
       that the assessments would have been more useful if USAID had shared them with interested parties
       in a more timely way.
    7. Because the new water strategy has not been finalized, it is premature to close recommendation 1 at
       this time. Once the strategy is complete, we will assess whether it is appropriate to close the
       recommendation.

    8. Although USAID reports that it has a new mission performance management plan with indicators to
       measure the effectiveness of programs benefitting the water sector, we do not, at this time, have
       enough information to assess how USAID will use this plan to evaluate its performance in meeting the
       new, draft water strategy. As we note in this report, the mission’s performance management plan for
       2011–2015 includes indicators for measuring outputs and outcomes in water sector projects, such as
       “more efficient use of expanded water resources,” “improved access to water supply and sanitation,”
       and the “number of people in target areas with access to improved sanitation facilities as a result of
       U.S. government assistance.” However, these indicators do not measure the same outputs and
       outcomes called for in the 2010 Water Strategy. Once the new strategy is complete, we will assess the
       extent to which the new mission performance plan aligns with the new strategy and, based on that
       assessment, determine whether to close recommendation 2.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                                Page 34
    9. Because the new water strategy has not been finalized, it is premature to close recommendation 3 at
       this time. Once the strategy is complete, we will assess whether it is appropriate to close the
       recommendation.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                                           Page 35
APPENDIX III - ACKNOWLEDGEMENTS

Eugene Gray, Senior Audit Manager
Farhat Popal, Analyst-in-Charge
James Smith, Senior Program Analyst
Paola Bobadilla, Program Analyst




SIGAR 14-52-AR/Afghanistan’s Water Sector   Page 36
                                  This audit report was conducted under
                                        project code SIGAR-077A.




SIGAR 14-52-AR/Afghanistan’s Water Sector                                 Page 37
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the US Congress, US agencies, and other
                               decision-makers to make informed oversight, policy, and funding
                               decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by US and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance US interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           US fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
